February 23, 2009

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2008 Postal Service Financial Statements
         Audit – St. Louis Information Technology and Accounting Service Center
         (Report Number FT-AR-09-009)

This report presents the results of our audit of selected financial activities and accounting
records at the U.S. Postal Service Information Technology and Accounting Service
Center (IT/ASC) in St. Louis, MO, for the fiscal year (FY) ended September 30, 2008
(Project Number 08BM001FT000). The Postal Reorganization Act of 1970, as amended,
requires annual audits of the Postal Service’s financial statements. We conducted this
audit in support of the independent public accounting firm’s overall audit opinion on the
Postal Service’s financial statements. This audit addressed financial risks. See
Appendix A for additional information about this audit.

Conclusion

During our audit of the St. Louis IT/ASC, we noted that:

•   Financial accounting policies and procedures provided for an adequate internal
    control structure and complied with accounting principles generally accepted in the
    U.S.

•   Accounting transactions at the St. Louis IT/ASC impacting the general ledger account
    balances were stated in accordance with accounting principles generally accepted in
    the U.S.

•   General ledger account balances conformed to the general classification of accounts
    on a basis consistent with that of the previous year.

•   The Postal Service complied with laws and regulations that have a direct and material
    effect on the financial statements.

We did not propose any adjustments, but we did identify control deficiencies regarding
international rates; property transactions; contract postal unit (CPU) payments; missing,
lost, or stolen money orders; and travel expense claims. These items were not
significant to the financial statements and did not affect the overall adequacy of internal
controls.


                                              2
Fiscal Year 2008 Postal Service Financial Statements Audit –                                       FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center



International Express Mail® Rates

Express Mail rates in the International Web System (IWS)1 were not always accurate or
supported. While we noted improvement in the maintenance of Terminal Dues® and
Parcel Post® rates due to corrective action taken as a result of our prior year audit,2 we
continued to find discrepancies with Express Mail rates. Specifically, based on a
statistical random sample of Express Mail rates for 50 of 184 FPAs from the IWS, we
identified (1) there were no source documents to support rates for two FPAs and
(2) rates were incorrect for four FPAs.3 This occurred primarily because Headquarters,
International Postal Affairs (IPA), did not obtain and maintain the rate documents on file
and did not timely inform the St. Louis International Accounting Branch (IAB) of rate
changes. See Appendix B for more information on our statistical sampling methodology
and projected results.

Agreements between the Postal Service and FPAs determine Express Mail rates. There
is no predetermined or uniform frequency of rate changes; therefore, the IAB depends on
the IPA to inform them of any rate changes and to provide them the documentation used
to update rates in the IWS when such events occur. The Postal Service uses these
rates to calculate payable amounts for outbound mail, generate billings to FPAs for
inbound mail, and calculate the monthly accrual amounts. To ensure accurate financial
information and correctly stated billings, the rates must be accurate and supported.
When rates are not accurate, the risk of misstated financial information or incorrect
billings increases. We did not calculate monetary impact for these errors since Express
Mail volume for the FPAs involved was not significant.4

Based on our audit work, IAB personnel updated the IWS with the correct rates for four
FPAs and the IPA worked with two FPAs to get the source documents. In addition, the
IPA and the IAB are working on a joint process to improve the integrity of Express Mail
rates. The new process requires the IPA to obtain and maintain all needed rate
documents on file, provide the IAB the rate source documents, and inform the IAB of rate
changes in a timely manner. The process also requires the IAB to timely update the
rates in the IWS upon receiving information from the IPA. Further, it encourages
frequent communication between the IAB and IPA to confirm rate changes, perform
bi-annual reviews of Express Mail rates, and certify the rates are correct.

Due to the corrective actions taken, we are not making any recommendations regarding
this issue. We will continue to monitor this area as part of our annual financial statement
audit work.

1
  The IWS determines the weight and pieces of exported and imported international mail to settle accounts between
the Postal Service and foreign postal administrations (FPA).
2
  See the “Progress on Prior Years’ Recommendations” section of this report for details of prior Terminal Dues and
Parcel Post rate issues.
3
  Poland and Venezuela had no supporting documents. Bahrain, Bangladesh, Macau, and Turkey had incorrect rates
in the system.
4
  These FPAs combined had less than 2 percent of the overall Express Mail volume in calendar years 2007 and 2008.



                                                        2
Fiscal Year 2008 Postal Service Financial Statements Audit –                                            FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center



Partial Land Sales

Postal Service personnel did not always accurately record partial land sales transactions.
Specifically, we noted depreciation activity related to a facility that was sold in FY 2001.
When St. Louis ASC personnel initially recorded the transaction,5 they removed the
entire dollar amount of the land from the general ledger inventory account6 rather than
the dollar amount of the portion sold.7 As a result, in FY 2001 the Postal Service
understated the general ledger land and building accounts by $608,312 and $2,335,471,
respectively. Further, the Postal Service recorded a loss of $2,128,573 when they
should have recorded a gain of $322,364.

Postal Service policy8 requires the St. Louis IT/ASC to remove the partial land cost from
inventory upon closing the sale. ASC personnel advised they were aware of the issue
but had set it aside for further investigation. As such, it was not yet resolved at the time
of our inquiry. St. Louis General Accounting Branch personnel requested the original
documentation from the appropriate FSO and processed adjusting journal entries in
September 2008 to correct the issue.

We found identical issues for recording partial land sales in our FY 2007 audit. We
recommended the St. Louis ASC remove only the partial land cost from inventory upon
closing partial sales and implement a procedure requiring periodic reviews to ensure
proper processing of routine property sales. Management implemented procedures
requiring the systems accountant to review all real estate transactions prior to recording.
In addition, for more complex, non-standard real estate transactions, the systems
accountant consults with Headquarters Accounting Policy prior to recording entries to the
general ledger. Further, to enhance the reconciliation process, the monthly real estate
transactions report shows sales proceeds deposited as well as the associated gain
and/or loss on sales. Except for this earlier error, we did not identify any instances of
this issue during FY 2008. Therefore, we are not making any recommendations but will
continue to monitor the situation as part of our annual financial statement audit work.

Audit Comment

The Postal Service’s increased efforts to ensure the accuracy of facility records and
improved notification processes between the FSOs, Headquarters Corporate
Accounting, and the St. Louis ASC should also ensure land and property disposals are
recorded timely. We noted that during FY 2008, FSO personnel informed the St. Louis
ASC of three properties that were disposed of in prior years, but the FSO had not yet


5
  The St. Louis ASC and Headquarters Accounting Policy rely on Facilities Service Office (FSO) personnel to provide
complete and timely documentation for facility disposal activity upon completion of the sales transaction.
6
  Account 17111 – U.S. Postal Service-Owned Land.
7
  Original land value for the Tucson Silverbell facility sold in FY 2001 was $745,424. Rather than a zero balance, the
adjusted land value after the partial sale should have been $608,312.
8
  Handbook F-25, Real Property and Leasehold Improvement Accounting, dated November 1990.



                                                           3
Fiscal Year 2008 Postal Service Financial Statements Audit –                                           FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


provided information to record those transactions. St. Louis ASC personnel took
immediate action to record these transactions.9

Contract Postal Unit Payments

The Postal Service did not always terminate CPU firm-fixed price contract payments
upon conversion to performance-based contracts.10 This occurred because district retail
office personnel did not notify the Denver Category Management Center (CMC) of the
conversion date. As a result, the Postal Service overpaid two CPU suppliers a total of
$8,122.11 In addition, if these erroneous payments had gone undetected, we project
overpayments totaling $35,080 over a 2-year period would have occurred. During the
course of our audit, the Postal Service canceled the automatic payments on the firm-
fixed price contracts and initiated action to collect the overpayments.

We found identical issues for converted contracts in our FY 2007 audit. In response to
our FY 2007 audit recommendation, the Postal Service updated notifications of contract
conversions to include the Denver CMC. To further improve controls, the Postal Service
also agreed to create a report in the CPU Technology system that shows CPUs with two
invoices generated in the same month for the same contract number. The target
completion date for system corrective action is Quarter 4, FY 2009.

Based on corrective actions taken and planned, we are not making additional
recommendations but will continue to monitor this issue as part of our ongoing financial
statements audit work. We will report $8,122 as recoverable questioned costs and
$35,080 as funds put to better use in our Semiannual Report to Congress. See
Appendix C for our calculation of monetary impact.

Management’s Comments

Management did not take issue with the $43,202 in monetary impact. See Appendix G
for management’s comments in their entirety.




9
  Danville, IN, Main Post Office partial land disposal in FY 2007; Boston, MA, Vehicle Maintenance Facility demolition
in FY 2001; Kansas City, MO, Main Post Office disposal in FY 2004.
10
   Contract types include firm-fixed price contracts, whereby CPU suppliers receive a fixed amount for services
provided, and performance-based contracts, whereby suppliers are paid based on percentage of sales. The Postal
Service paid $85.1 million to CPU suppliers in FY 2008.
11
   The two suppliers received automated payments for both the firm-fixed price and performance-based contracts: one
supplier for 3 months and the other supplier for 9 months.



                                                          4
Fiscal Year 2008 Postal Service Financial Statements Audit –                                           FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center



Missing, Lost, or Stolen Money Orders

Postal Service policy12 directs postal retail units (PRU) to use the bi-weekly Postal
Bulletin as the primary means of identifying missing, lost, or stolen money orders when a
more timely and complete listing is available on the Postal Service’s website. While
personnel at PRUs with Point-of-Service (POS) technology use the latter methodology,
management has not yet communicated this option to PRUs that do not have POS
technology.

The Postal Service’s internal and external websites13 not only include ranges of 10 or
more money orders included in the Postal Bulletin, but also list ranges of less than
10 money orders and individual money orders that have been identified as missing, lost,
or stolen. Another benefit of using the Postal Service’s websites is that St. Louis ASC
personnel update them as soon as they receive an official missing, lost, or stolen report.
Revisions do not depend on a Postal Bulletin publication date which could be as long as
2 weeks. In addition, the websites provide a quick and accurate mechanism for
searching money order serial numbers. Further, when terminals are not available at the
counter, PRU personnel can print a current copy from the Postal Service’s websites and
use a hard copy for verification.

Based on an October 21, 2008, website listing for missing, lost, or stolen money orders,
there were 2,233 money orders not included in the Postal Bulletin.14 We estimate the
total value of these money orders as $893,200, based on the Postal Service’s estimated
value of $40015 per money order. Though we found no cash missing and no lost or
stolen money orders, when Postal Service personnel do not use the latest and most
complete information to identify missing, lost, or stolen money orders, the Postal Service
increases the risk of someone illegally cashing these accountable items.

We recommend the Vice President, Controller, direct the Manager, Accounting Policy, to:

     1. Remove the requirement to use the biweekly Postal Bulletin as the primary means
        for identifying missing, lost or stolen money orders from Handbook F-101, Field
        Accounting Procedures, and replace it with the Postal Service’s website
        addresses.

     2. Communicate to all postal retail units without Point-of-Service technology the
        requirement to use the missing, lost or stolen money order information published
        on the Postal Service’s websites, as available.


12
   Handbook F-101, Field Accounting Procedures, July 2008.
13
   The Postal Bulletin is available at either www.usps.com or www.usps.gov.
14
   The Postal Bulletin would not have included these missing, lost or stolen money orders since they were either in
ranges of fewer than 10 or single money order issuances.
15
   FY 2005 average money order value reported in the St. Louis ASC Fraud Money Order Summary for Lost/Stolen
Money Orders report.



                                                          5
Fiscal Year 2008 Postal Service Financial Statements Audit –                    FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


We will report $893,200 as non-monetary impact, accountable items at risk, in our
Semiannual Report to Congress.

Management’s Comments

Management disagreed with the finding and stated their data concludes the risk level is
low enough not to warrant additional operational changes. Also, according to
management, the finding did not consider two major control mechanisms that have been
implemented. First, the POS system receives a daily download of the missing, lost or
stolen money order file from the money order database. The system will detect and
prevent the retail associate (RA) from cashing the money orders included in this file;
therefore, a manual process is not required to prevent the RA from cashing missing, lost,
or stolen money orders. Second, management implemented the Money Order
Verification System via an Interactive Voice Response (IVR) system as a fraud
prevention method for internal and external users.

Management advised that current policy requires retail units that do not have POS
technology to check the most current Postal Bulletin before they cash money orders;
however, they have the option of calling the IVR or checking the website. They stated
that current policy does not go beyond checking the Postal Bulletin because smaller
retail units often have one person working at the retail window, which may prevent them
from leaving the customer. Again, as the historical data proves, the risk is not high
enough for the national policy to require retail personnel at retail units that do not have
POS technology to check the website.

Management also disagreed with the non-monetary impact of $893,000 because the
calculation includes POS offices that have negligible risk.

Evaluation of Management’s Comments

Management’s response did not differentiate between the two recommendations. We
acknowledge that POS system and IVR control mechanisms use the latest information
available and reduce the risk of cashing missing, lost, or stolen money orders. However,
management has not yet required retail sites that currently do not have POS technology
(approximately 60 percent) to check the website or call the IVR. The intent of our
recommendations was to strengthen controls for those sites. We acknowledge that it
may not always be practical for offices to use the website or IVR; however, we continue
to believe that Postal Service policy should establish the best process as the primary
means, with stated alternatives when the website or IVR is not the appropriate tool to
use under certain conditions. Regarding risk, we agree the total value of cashed
missing, lost, or stolen money orders is low. However, we note the total value during
Quarter 1, FY 2009, rose to approximately $7,500 (45 money orders). Therefore, we
conclude there is a continued risk of cashing missing, lost, or stolen money orders which
warrants the recommended operational change.




                                                   6
Fiscal Year 2008 Postal Service Financial Statements Audit –                                       FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


Regarding the $893,200 in non-monetary impact, we agree retail units with the POS
technology have less risk because of the POS and IVR processes in place there.
However, in determining non-monetary impact we must consider maximum risk, meaning
there is a possibility that RAs at units that do not have the POS technology could cash all
identified missing, lost, or stolen money orders. Therefore, we believe the non-monetary
impact of $893,200 is appropriate.

Because the total value of cashed missing, lost, or stolen money orders is not significant,
we will not continue to pursue this issue at this time. We will monitor it as part of our
annual financial statement audit work.

Travel Expense Claims

Postal Service employees did not always accurately complete travel expense reports in
the eTravel System (eTravel) and include required receipts. Specifically, from our
statistical sample, we identified eight errors on 70 approved FY 2008 Quarter 2 expense
reports in eTravel. We also identified five errors in our completeness test16 of 25
randomly selected FY 2008 Quarter 3 expense reports. These errors occurred because
Postal Service employees were not always aware of the requirements, and local officials
approved travel expense claims in error. In addition, St. Louis ASC personnel processed
summary expense reports without verifying the required receipts were attached to the
expense reports. Further, an employee submitted a reimbursement prior to the hotel
transaction being populated into eTravel. As a result, the Postal Service reimbursed
employees for incorrect or unsupported travel expense amounts and recorded travel
expenses in the incorrect accounting month. See Appendix D for our detailed analysis of
this topic.

We recommend the Vice President, Controller, direct the Manager, Corporate
Accounting, to:

     3. Reiterate travel expense report preparation and approval requirements to all area
        finance managers.

     4. Provide training on travel expense report preparation as appropriate.

We recommend the Vice President, Controller:

     5. Direct the Manager, St. Louis Accounting Service Center, to instruct St. Louis
        Accounting Service Center employees to verify that required receipts are attached
        to summary expense reports and obtain missing receipts before processing.




16
  Completeness testing involves a random selection of source documentation, which is subsequently traced through
the system to ensure the transaction was complete.



                                                        7
Fiscal Year 2008 Postal Service Financial Statements Audit –                                      FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


Management’s Comments

Management neither agreed nor disagreed with the finding and recommendations 3
through 5. They plan to review travel expense report preparation and approval
requirements with area accounting and finance managers during meetings held in
February and March 2009, respectively, and will provide appropriate training on travel
expense report preparation, highlighting reflection of approved business expenditures,
attachment of required receipts, and timely submission of expense reports.
Management will also work with St. Louis Accounting Services Back Office personnel to
compile a list of common errors, by close of Postal Quarter 2, FY 2009, for area eTravel
coordinators to use in training. In addition, the St. Louis Accounting Services Back
Office has modified their procedure to ensure employees scan only bar coded receipt
reports with properly attached receipt(s).

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to these recommendations and the corrective actions should
resolve the issues identified in the report.

Interim Reports

See Appendix E for details of control issues regarding Miami International Service
Center (ISC) inbound international mail, CPU bonding, and rail service claim payments
and Transportation Contract Support System (TCSS) access at the Capital Metro
Distribution Network Office (DNO). These items were not significant to the financial
statements, did not affect the overall adequacy of internal controls, and were reported to
management through interim reports.

Progress on Prior Years’ Recommendations

We followed up on recommendations concerning international mail, manual
transportation payments, FY 2007 Peak Season (Christmas 2006) fuel, highway extra
trips, closing instruction procedures, and leasehold improvements from prior years’
financial statement audits at the St. Louis IT/ASC.17 See Appendix F for a description of
previously reported issues and the progress the Postal Service has made in addressing
the recommendations.

We will report monetary impact of $43,202, including $8,122 as recoverable questioned
costs and $35,080 as funds put to better use, and non-monetary impact of $893,200,
accountable items at risk, in our Semiannual Report to Congress.



17
  We also made recommendations concerning CPU payments and partial land sales in prior years’ financial statement
audits. However, we discuss those issues in other sections of this report, so we do not repeat them here.



                                                       8
Fiscal Year 2008 Postal Service Financial Statements Audit –                  FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director, Financial
Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:    Joseph Corbett
       Susan M. Brownell
       Paul E. Vogel
       Vincent H. DeVito, Jr.
       Jo Ann E. Mitchell
       Stephen J. Nickerson
       Edward L. Brown
       Katherine S. Banks




                                                   9
Fiscal Year 2008 Postal Service Financial Statements Audit –                                              FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The St. Louis IT/ASC is one of three ASCs Postal Service-wide.18 It is responsible for
accounting functions related to money orders, real property, transportation, international
mail, and accounts payable.19 The facility is also responsible for processing financial
and accountability data from field units.

We have issued separate financial statement audit reports for headquarters and the
Eagan, MN, and San Mateo, CA, IT/ASCs. Further, in addition to the overall opinion on
the Postal Service’s financial statements, the independent public accounting firm,
contracted by the Board of Governors to express an opinion on the financial statements,
will issue separate reports on the Postal Service’s internal controls and compliance with
laws and regulations. The OIG will also issue a separate report for the audit of the
FY 2008 information system controls at the Eagan, San Mateo, and St. Louis IT/ASCs
and the Raleigh, NC, Information Technology Service Center.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether:

     •   Financial accounting policies and procedures provide for an adequate internal
         control structure and comply with accounting principles generally accepted in the
         U.S.

     •   Accounting transactions at the St. Louis IT/ASC impacting the general ledger
         account balances for assets, liabilities, equity, income and expenses of the Postal
         Service are fairly stated in accordance with accounting principles generally
         accepted in the U.S.

     •   General ledger account balances conform to the general classification of accounts
         of the Postal Service on a basis consistent with that of the previous year.

     •   The Postal Service complies with laws and regulations that have a material and
         direct effect on the financial statements as a whole.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. We conducted this audit from November 2007 through
February 2009 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to limit audit risk to a low level that is, in our professional judgment,
18
   Other ASCs are located in Eagan, MN, and San Mateo, CA.
19
   Includes accounting for rents and leases, contract stations, vehicle hire, uniform allowance, indemnity claims, tort
claims, and eTravel.



                                                            10
Fiscal Year 2008 Postal Service Financial Statements Audit –                 FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


appropriate for supporting the overall audit opinion on the financial statements. Those
standards also require considering the results of previous engagements and following up
on known significant findings and recommendations that directly relate to the objectives
of the audit. An audit also includes obtaining a sufficient understanding of internal
control to plan the audit and to determine the nature, timing, and extent of audit
procedures to be performed.

We supported the external auditors in obtaining reasonable assurance about whether the
financial statements are free of material misstatement (whether caused by error or
fraud). Absolute assurance is not attainable because of the nature of audit evidence and
the characteristics of fraud. Therefore, an audit conducted in accordance with generally
accepted government auditing standards may not detect a material misstatement.
However, the external auditors and the OIG are responsible for ensuring that appropriate
Postal Service officials are aware of any significant deficiencies that come to our
attention. We discussed our observations and conclusions with management officials on
December 22, 2008, and included their comments where appropriate.

We relied on computer-generated data from several Postal Service financial systems,
including:

           •   Accounting Data Mart
           •   Xxxxxx Accounts Payable20
           •   electronic Facilities Management System (eFMS)
           •   Money Order History File
           •   eTravel
           •   Settlement Management System
           •   Surface Air Management System
           •   Xxxxx Merchandising System
           •   TCSS

We performed specific internal control and transaction tests on these systems’ data to
include tracing selected financial information to supporting source records. For example,
we verified that payment authorizations supported payments recorded in eFMS and that
the Postal Service applied the amounts to the appropriate general ledger accounts.




20
     Formerly referred to as Accounts Payable Excellence.



                                                            11
Fiscal Year 2008 Postal Service Financial Statements Audit –                                    FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


PRIOR AUDIT COVERAGE

                             Report           Final            Monetary
   Report Title             Number         Report Date          Impact                Report Results21
J.T. Weeker               FT-AR-06-013      3/22/2006          $147,729     Except for letter class mail,
(Chicago)                                                                   inbound international mail volumes
International                                                               were not always accurate and
Service Center –                                                            internal controls for recording
Inbound                                                                     inbound international mail needed
International Mail                                                          strengthening. Management took
                                                                            corrective action, and the
                                                                            recommendations are closed.
Manual                    FT-AR-08-001     11/15/2007            N/A        Manual transportation payments
Transportation                                                              were not always properly
Payments                                                                    supported, approved, or
                                                                            authorized prior to payment.
                                                                            Management took corrective
                                                                            actions, and the
                                                                            recommendations are closed.
Fiscal Year 2007          FT-AR-08-003     12/14/2007            N/A        Postal Service personnel could
Peak Season                                                                 not determine whether payments
(Christmas 2006)                                                            represented the actual costs
Fuel                                                                        associated with the
                                                                            transportation of FY 2007 peak
                                                                            season (Christmas 2006) mail.
                                                                            Management took corrective
                                                                            action, and the recommendation
                                                                            is closed.
New York                  FT-AR-08-005      1/24/2008         $13,700,604   Volume data used to bill FPAs for
International                                                               inbound Express Mail and letter
Service Center –                                                            class service was not always
Inbound                                                                     accurate. Two significant
International Mail                                                          recommendations regarding
                                                                            policies and procedures to
                                                                            document complete processing
                                                                            and billing cycle and controls to
                                                                            ensure FPAs are correctly billed
                                                                            for all valid dispatches remain
                                                                            open.




21
     See Appendix F for further details.



                                                         12
Fiscal Year 2008 Postal Service Financial Statements Audit –                                                 FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


Fiscal Year 2007         FT-AR-08-010          3/31/2008            $6,644          A significant deficiency existed
Postal Service                                                                      with international issues.22 In
Financial                                                                           addition, we identified control
Statement                                                                           deficiencies regarding highway
Audit – St. Louis                                                                   extra trips, transportation
Information                                                                         systems’ access, eTravel claims,
Technology and                                                                      CPU payments, and property
Accounting                                                                          transactions. One significant
Service Center                                                                      recommendation to modify
                                                                                    policies and procedures to
                                                                                    include destination facility
                                                                                    validation in the highway extra
                                                                                    trips payment process remains
                                                                                    open.




22
   Ernst and Young, LLP, the independent public accounting firm contracted to opine on the Postal Service’s financial
statements, reported this as a significant deficiency in its Report on Internal Control Over Financial Reporting and on
Compliance and Other Matters Based on an Audit of Financial Statements Performed in Accordance with Government
Auditing Standards (dated November 14, 2007). A significant deficiency is a control deficiency or combination of
control deficiencies that adversely affects the entity’s ability to initiate, authorize, record, process, or report financial
data reliably in accordance with generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the entity’s financial statements that is more than inconsequential will not be
prevented or detected by the entity’s internal control. The significant deficiency was closed in FY 2008.



                                                             13
Fiscal Year 2008 Postal Service Financial Statements Audit –                   FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


              APPENDIX B: STATISTICAL SAMPLING AND PROJECTION
                   FOR THE AUDIT OF EXPRESS MAIL RATES

The objective of this portion of the audit was to determine whether Express Mail rates in
the IWS were correct by tracing the rates in the system to the rate source documents at
the IAB.

The audit team obtained the Express Mail rate file from the IAB. The file contains 184
FPAs with Express Mail rates for calendar year 2008. Using unrestricted random
sampling with a 90 percent confidence level, we selected a sample of 50 FPAs to test.
 
STATISTICAL PROJECTION OF THE SAMPLE DATA

We found discrepancies with six FPAs from the sample of 50. We used the Office of
Audit Services (OAS) Regional Advanced Technique Staff (RATS)-STATs, U.S.
Department of Health and Human Services, Version 2, program to get the statistical
projection of the sample result. At a 90 percent confidence level, the projected error rate
has a point estimate of 12 percent (or 22) of the FPAs with incorrect Express Mail rates
in the system. The upper bound on the error rate is 20.652 percent (or 38 of the FPAs),
and the lower bound on the error rate is 6.522 percent (or 12 of the FPAs).




                                                   14
Fiscal Year 2008 Postal Service Financial Statements Audit –                                          FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


                                    APPENDIX C: CPU PAYMENTS

We will report the overpayments of $8,122 as monetary impact, recoverable questioned
costs, and future overpayments of $35,080 as funds put to better use in our Semiannual
Report to Congress. We calculated these amounts as follows.

                               RECOVERABLE QUESTIONED COSTS

     CPU                   Calculation23                              Amount                  Total*
      1       December through August 2008:                          $7,125.03
              9 months X $791.67
              Less $473.52 compensation due                            (473.52)
              supplier for March 2008
              Subtotal                                                                       $6,652
      2       July through September 2008:                          $2,010.00
              3 months X $670
              Less $540 compensation due supplier                      (540.00)
              for July 2008
              Subtotal                                                                       $1,470

              Total                                                                          $8,122


                   FUNDS PUT TO BETTER USE

      CPU                      Calculation24                       Total
                                                                  Amount*
          1        24 months X $791.67                             $ 19,000
          2        24 months X $670.00                               16,080

                   Total                                              $35,080

* Total amounts are rounded to nearest dollar.




23
   Recoverable questioned costs are costs that are unnecessary, unreasonable, or an alleged violation of laws or
regulations. We used actual amounts paid as provided by the Denver CMC.
24
   Funds the Postal Service could use more efficiently by implementing recommended actions.



                                                         15
Fiscal Year 2008 Postal Service Financial Statements Audit –                                            FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


                             APPENDIX D: TRAVEL EXPENSE CLAIMS

Postal Service employees did not always accurately complete their expense reports in
eTravel and include required receipts with their expense reports. Specifically, from our
statistical sample of 70 approved expense reports in eTravel, we identified eight errors
as follows.25

     •   One report had an incorrect expense amount for the hotel and the employee was
         overpaid $8.60.

     •   Two reports were missing a hotel receipt.

     •   Five vouchers were not submitted timely.26

Postal Service Handbook F-15, Travel and Relocation, outlines travel reimbursement
requirements for Postal Service employees on official business travel. It states
employees should:

     •   Itemize hotel expenses.27

     •   Attach required receipts per the eTravel summary expense report and send the
         report and receipts to the St. Louis ASC for processing.

     •   Submit the eTravel expense report as soon as possible after completing travel but
         no later than the end of the accounting month in which travel was completed.

We found similar errors in our completeness test of 25 randomly selected travel expense
reports submitted in Quarter 3. Specifically, we found one traveler was overpaid $5 for a
hotel personal expense; three travel expense reports were missing required receipts for
airfare28 and hotel expenses; and one travel expense report was not submitted timely.

These errors occurred because employees were not always aware of the requirements,
and local officials approved eTravel expense claims in error. In addition, the St. Louis
ASC scanned the barcodes for summary expense reports without verifying the required
receipts were attached to the expense reports. Further, an employee submitted a
reimbursement prior to the hotel transaction being populated into eTravel. As a result,
the Postal Service reimbursed employees for incorrect and unsupported travel expense
amounts and recorded travel expenses in the incorrect accounting month. Using the

25
   We used OAS RAT-STATS program’s simple random sample size generator to calculate the sample size from a
universe of 145,223 eTravel expense reports, valued at $23,865,004. We excluded OIG and Board of Governors
travel vouchers from our sample.
26
   The OIG considers eTravel expense reports submitted more than 30 days after completion of travel not timely. The
five vouchers were submitted between 34 and 104 days following travel completion.
27
   Itemization of hotel charges is mandatory to eliminate all non-reimbursable charges that may be in the lodging bill.
28
   Airfare receipts were required for two reports because the employees did not use the pre-populated expense
amount that appears in eTravel; instead, the employees manually entered the airfare into eTravel.



                                                          16
Fiscal Year 2008 Postal Service Financial Statements Audit –              FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


OAS RAT-STATS program to analyze the results, we estimated an error rate of
11.429 percent, or 16,598 eTravel expense reports. We calculated the actual
percentage of errors was between 5.067 percent (or 7,358 eTravel expense reports) and
21.280 percent or (30,903 eTravel expense reports) at a 95 percent confidence level.




                                                   17
Fiscal Year 2008 Postal Service Financial Statements Audit –                                       FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


                                 APPENDIX E: INTERIM FINDINGS

During our audit, we identified and reported the following three issues to management
through interim reports.

Miami International Service Center – Inbound International Mail29

Volume data used to bill FPAs for inbound international letter class and Parcel Post mail
at the Miami ISC was accurate. However, volume data used to bill FPAs for inbound
international Express Mail Service (EMS) was not always complete. Based on Express
Mail billing data analyzed for the Miami ISC for the period October 1 to December 31,
2007, we determined the Post Office did not bill 1,058 manually entered dispatches30 to
the FPAs. As a result, the Postal Service under billed FPAs for processing and delivery
of inbound international Express Mail items by $2,084,620 for the period October 9 to
December 31, 2007. Because of the corrective action taken as a result of our audit, we
did not offer a recommendation.

Contract Postal Unit Bonding31

The Postal Service did not have procedures in place to verify CPUs completed the
annual financial examination, maintained a current file of CPU activities, and assessed
the adequacy of bond amounts. In addition, the Postal Service did not have procedures
to monitor the validity of existing bond waivers. Finally, existing procedures did not
provide for establishing and updating oversight tools to monitor the adequacy of bond
amounts.

We recommended the Postal Service clarify procedures for granting bond waivers for
CPUs, develop and implement procedures to ensure that existing monitoring tools reflect
current requirements, and communicate the availability and use of these tools. We also
recommended the areas develop and implement procedures for local and district
monitoring of CPU activities and financial examinations, reiterate bonding requirements
to all CPU contractors and contracting officer representatives, and evaluate and update
existing bonds and bond waivers, as appropriate, to ensure that bond amounts cover full
stamp and postage meter accountabilities.

Management agreed with the recommendations and planned or implemented corrective
action to ensure that bonding requirements are met, waivers are appropriate, and
monitoring tools are current and used. We will continue to monitor implementation of
corrective actions in our FY 2009 audit.



29
   Miami International Service Center – Inbound International Mail (Report Number FT-AR-08-012, dated September 3,
2008).
30
   At the time of our review, there were a total of 1,413 dispatches in the billing data.
31
   Contract Postal Unit Bonding (Report Number FT-AR-09-005, dated December 10, 2008).



                                                        18
Fiscal Year 2008 Postal Service Financial Statements Audit –                                           FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


Capital Metro Distribution Network Office32

Highway transportation payment information entered into TCSS at the Capital Metro
DNO was properly supported, authorized, and accurate. However, key duties and
responsibilities related to contract administration and TCSS system administration were
not appropriately separated for an individual at the Capital Metro DNO. In addition,
although internal controls over the Rail Management Information System (RMIS) service
claims processed manually at the Capital Metro DNO improved from the previous audit,
improvement is still needed to ensure RMIS service claim payments made to rail carriers
are properly authorized and recorded, and transactions are accurate.

For TCSS, we recommended management review access privileges for personnel at the
Capital Metro DNO to ensure adequate segregation of duties exists. With regard to
RMIS service claim payments, we recommended management:

       •   Communicate supporting documentation requirements to personnel authorized to
           review and approve RMIS service claim supporting documentation packages.

       •   Direct personnel responsible for investigating, compiling, and entering service
           claim information into the RMIS to prepare supporting documentation packages in
           accordance with Postal Service policy.

       •   Direct personnel authorized to review and approve service claim payments in
           RMIS to perform a review of all FY 2008 packages for the proper supporting
           documents and reconcile the claim payments with the RMIS master contract rate
           to ensure the payments were appropriate.

       •   Conduct a quarterly review of RMIS service claim packages and payments to
           ensure compliance with Postal Service policy.




32
     Capital Metro Distribution Network Office (Report Number FT-AR-09-008, dated January 30, 2009).



                                                          19
Fiscal Year 2008 Postal Service Financial Statements Audit –                                          FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


          APPENDIX F: PROGRESS ON PRIOR YEARS’ RECOMMENDATIONS

J.T. Weeker (Chicago) International Service Center– Inbound International Mail33

Except for letter class mail, inbound international mail volumes were not always
accurate, and internal controls for recording inbound international mail at the
J.T. Weeker (Chicago) ISC needed strengthening. Specifically, mail volumes on
manifests did not support billing and revenue data in the general ledger for inbound
international Express Mail and Parcel Post. For Coventry (upgraded) Parcels, the Postal
Service did not always request missing source documents.34 In addition, the Postal
Service did not have a process in place to monitor volume data entered for inbound
international mail. We recommended management reiterate the requirement to request
missing source documents for Coventry (upgraded) Parcels and implement a procedure
to continuously monitor the reliability of inbound international mail volume data used to
support billings, to include manual and scanned data.

In response to our recommendations, management reassigned and trained new
personnel and reinforced the need to request missing documents. Also, they developed
a procedure to verify manual data entries of letter class mail dispatches and Parcel Post
mail dispatches. Although J.T. Weeker has not taken corrective actions regarding
Express Mail discrepancies, we realize that Express Mail data is scanned for billing
purposes with no intervention from the record unit personnel. In addition, based on our
FY 2007 audit at the New York ISC, we determined that Express Mail discrepancies
were in large part due to a flaw in the Express Mail program, which management has
subsequently corrected. Accordingly, we believe the issues regarding Express Mail are
not fully under control of J.T. Weeker personnel. Accordingly, we closed the
recommendation on March 10, 2008. We will continue to test Express Mail billing
information as part of our financial statement audit work.

Manual Transportation Payments35

Although the Postal Service accurately recorded manual transportation payments, they
were not always properly supported, approved, or authorized prior to payment.
Specifically, Transportation Portfolio CMC personnel did not always enter adequate
documentation into the Logistics Contract Management Systems (LCMS) to support
manual transportation payments. Further, Transportation Portfolio personnel approved
— and St. Louis ASC personnel authorized and released — manual transportation
payments without ensuring the documentation in LCMS supported the payments. In
response to our recommendations to improve the payment process, management
established and communicated policies and procedures regarding the documentation in

33
   J.T. Weeker (Chicago) International Service Center – Inbound International Mail (Report Number FT-AR-06-013,
dated March 22, 2006).
34
   Inbound international mail documents supporting weights and pieces of mail received to support billings to FPA.
These documents are filed on-site in the international records unit at the ISCs or international exchange offices.
35
   Manual Transportation Payments (Report Number FT-AR-08-001, dated November 15, 2007).



                                                         20
Fiscal Year 2008 Postal Service Financial Statements Audit –                                       FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


the LCMS needed to support manual transportation payments and approval and
authorization responsibilities in the payment process.

Management’s actions corrected the issues identified and, accordingly, we closed these
recommendations during FY 2008. We will continue to review documentation included
within the LCMS as part of our annual financial statement audit.

FY 2007 Peak Season (Christmas 2006) Fuel36

Postal Service personnel could not determine whether payments represented the actual
costs associated with the transportation of FY 2007 peak season (Christmas 2006) mail.
Specifically, they did not properly validate peak season (Christmas 2006) fuel invoices or
perform post-season reconciliations of those payments. In response to our audit,
management enhanced the payment-related documentation and implemented a process
change for FY 2008 contracts to require fuel suppliers and air carriers to provide
supporting documentation to validate invoices. Management’s action corrected the issue
identified and we closed this recommendation during FY 2008.

New York International Service Center – Inbound International Mail37

Volume data used to bill FPAs for inbound air Parcel Post Mail at the New York ISC was
accurate. However, volume data used to bill FPAs for inbound Express Mail and letter
class service was not always accurate. In response to our recommendations,
management planned to establish policies and procedures to address billing of inbound
international mail and communicate with relevant parties 3 months after implementing
new settlement systems, which is tentatively scheduled for June 30, 2009. Also,
personnel modified, reviewed, and verified changes to the EMS database load and error
reporting within the IAB system, which allows all relevant data to be included in the EMS
billing process. Further, management agreed to establish controls to ensure they bill
FPAs correctly for valid dispatches, including dispatch numbers used more than once in
a calendar year. Management expects this task to be completed by June 30, 2009.
Finally, Headquarters IPA sent the China Postal Administration correspondence
regarding the use of duplicate dispatch numbers and China has taken action to improve
and avoid duplication within a calendar month. Headquarters IPA will follow up when
notified of instances of duplicate dispatch numbers.

During FY 2008, we identified issues with Express Mail billing data for the Miami and
Chicago ISCs;38 however, the issues differ from those identified at the New York ISC and
are discussed separately in Appendix E. Management’s actions corrected the
recommendations regarding changes to the EMS database and duplicate dispatch

36
   Fiscal Year 2007 Peak Season (Christmas 2006) Fuel (Report Number FT-AR-08-003, dated December 14, 2007).
37
   New York International Service Center – Inbound International Mail (Report Number FT-AR-08-005, dated
January 24, 2008).
38
   Miami International Service Center – Inbound International Mail (Report Number FT-AR-08-012, dated September 3,
2008).



                                                       21
Fiscal Year 2008 Postal Service Financial Statements Audit –                                          FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


numbers. Accordingly, we consider those recommendations closed. However, we will
continue to monitor the recommendations addressing establishment of policies and
procedures to address billing of inbound international mail and controls to ensure FPAs
are correctly billed for valid dispatches.39

International Mail Rates40

We identified issues with international mail rates in prior years’ audits.41 Specifically,
rates were not always correct, timely updated, and/or properly supported. We
recommended management implement and communicate complete written policies and
procedures to require employees to enter and update rates timely, to obtain support for
rates as necessary, and to verify periodically international rates. In response to our
recommendation, management implemented procedures to ensure employees receive
and act upon all sequentially numbered Universal Postal Union Circulars and addressed
bilateral agreement rate discrepancies identified during the billing and settlement
processes. Also, they will initiate inquiries to Headquarters IPA for updated rate
information. Further, management developed and implemented detailed desk
procedures that outline steps for entering and verifying new rates and require review and
comparison of data entered to the source documentation. Finally, in addition to
verification of rates after entry, employees will conduct and record a final review (annual,
Parcel Post quarterly, periodic).

Except for Express Mail, management’s actions corrected the issues identified;
therefore, we consider this recommendation closed. We address Express Mail rate
discrepancies in a separate section of this report.

Highway Transportation Extra Trips

Internal controls over payments made to highway transportation contractors for trips in
addition to those under contract (extra trips) need strengthening. The current payment
process does not include validation from the destination facility. Instead, the originating
facility initiates and maintains control of the authorization and certification forms and
submits the certification form directly to the St. Louis IT/ASC for further processing.
Management advised that even though the destination facility does not verify the form
used for payment, current controls require the destination facility to complete its portion
of the form used as support to prepare the payment form. However, in response to our
recommendation, management advised they will review this payment process as part of
39
   These recommendations are considered significant and should not be closed in the Postal Service’s follow-up
tracking system until the OIG provides written confirmation the recommendations can be closed.
40
   The remainder of this section contains issues reported in our Fiscal Year 2007 Postal Service Financial Statement
Audit – St. Louis Information Technology and Accounting Service Center (Report Number FT-AR-08-010, dated
March 31, 2008).
41
   Prior audit findings: Fiscal Year 2007 Postal Service Financial Statement Audit – St. Louis Information Technology
and Accounting Service Center (Report Number FT-AR-08-010, dated March 31, 2008); Fiscal Year 2006 Postal
Service Financial Statement Audit – St. Louis Information Technology and Accounting Service Center (Report Number
FT-AR-07-011, dated March 28, 2007); and International Parcel Post Accrual (Report Number FT-AR-06-007, dated
December 27, 2005).



                                                         22
Fiscal Year 2008 Postal Service Financial Statements Audit –                                          FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


the Postal Service’s efforts to comply with the Sarbanes-Oxley Act and anticipate any
related actions to be completed during FY 2009. We will continue to monitor this issue
as part of our annual financial statements audit.42 Also, we are conducting a nationwide
review of the Postal Service’s oversight of highway transportation contracts extra trips.43

Project Financial System (PFS) Unrecorded Liability

St. Louis IT/ASC personnel did not timely complete year-end closing instruction
procedures. Specifically, at the time of our audit, they did not create a liability accrual to
record PFS payments as required by year-end closing instructions. In response to our
recommendation, management instructed branch managers to adhere to closing
schedules and instructions. In addition, the St. Louis ASC prepared a processing
schedule specific to the facility asset accounting section which includes the quarterly
PFS accrual process. The system accountant communicates with Accounting Policy
personnel through the close of the general ledger who then advise when to book the final
accrual. Also, in FY 2008, management modified the PFS accrual report to run daily
beginning the month after the end of the quarter and a cumulative total is provided.
Management’s actions corrected the issues identified in the finding and, accordingly, we
consider these recommendations closed.

Leasehold Improvement Amortization

Postal Service personnel did not always timely resolve leasehold improvement project
exceptions. According to St. Louis IT/ASC personnel, there were no specific Postal
Service policies or procedures in place to resolve these exceptions. Further, personnel
were not adequately trained to resolve exceptions or had higher priority projects. In
response to our recommendation, St. Louis ASC and Headquarters Facilities personnel
prepared procedures on resolving various exceptions on the Leasehold Amortization
Calculation Exception Lists report and initially agreed to train responsible personnel on
resolving leasehold amortization exceptions. However, since personnel who developed
the procedures will also be responsible for clearing the exceptions, formal training was
not necessary.

Management’s actions corrected the issues identified in the finding. We noted the
number of exceptions that appeared on the report in FY 2008 decreased from the prior
year. Accordingly, these recommendations are considered closed.




42
   We consider this recommendation significant and it should not be closed in the Postal Service’s follow-up tracking
system until we provide written confirmation that it can be closed.
43
   Draft Audit Report - Review of the Postal Service Oversight of Extra Highway Transportation Contract Trips.(Report
Number CA-AR-09-DRAFT, dated February 4, 2009).



                                                         23
Fiscal Year 2008 Postal Service Financial Statements Audit –      FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center


                       APPENDIX G: MANAGEMENT’S COMMENTS




                                                   24
Fiscal Year 2008 Postal Service Financial Statements Audit –      FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center




                                                   25
Fiscal Year 2008 Postal Service Financial Statements Audit –      FT-AR-09-009
 St. Louis Information Technology and Accounting Service Center




                                                   26
